      Department of Homeland Security




         Independent Review of U.S. Immigration and 

            Customs Enforcement’s Reporting of 

              FY 2012 Drug Control Obligations





OIG-13-30 (Revised)                           February 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      FEB 14 2013

MEMORANDUM FOR:              Radha Sekar
                             Acting Executive Associate Director
                             Management and Administration
                             U.S. Immigration and Customs Enforcement

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     IndependentfReviewfoffU.S.fImmigrationfandfCustomsf
                             Enforcement’sfReportingfoffFYf2012fDrugfControlf
                             Obligationsf
ff
Attached for your information is our revised report, IndependentfReviewfoffU.S.f
ImmigrationfandfCustomsfEnforcement’sfReportingfoffFYf2012fDrugfControlfObligations.
The original independent accountants’ report contained a paragraph discussing an
exhibit which was not included in the Immigration and Customs Enforcement’s final
submission to the Office of National Drug Control Policy. The independent accountant
has removed the unnecessary paragraph. Please see the attached errata page for
details.
f
U.S. Immigration and Customs Enforcement’s management prepared the Table of Prior
Year Drug Control Obligations and related disclosures to comply with the requirements
of the Office of National Drug Control Policy Circular, DrugfControlfAccounting, dated
May 1, 2007. ff
f
We contracted with the independent public accounting firm KPMG LLP to perform the
review. KPMG LLP is responsible for the attached independent accountants’ report,
dated January 22, 2013, and the conclusions expressed in it. We do not express an
opinion on the Table of Prior Year Drug Control Obligations or related disclosures. This
report contains no recommendations.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                              Independent Accountants’ Report



Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Table of Prior Year Drug Control Obligations and related
disclosures of the U.S. Department of Homeland Security’s (DHS) Immigration and Customs
Enforcement (ICE) for the year ended September 30, 2012. We have also reviewed the
accompanying management’s assertions for the year ended September 30, 2012. ICE’s
management is responsible for the Table of Prior Year Drug Control Obligations, related
disclosures, and the assertions.

Our review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants, and applicable standards contained in Government
Auditing Standards, issued by the Comptroller General of the United States. A review is
substantially less in scope than an examination, the objective of which is the expression of an
opinion on the Table of Prior Year Drug Control Obligations, related disclosures, and
management’s assertions. Accordingly, we do not express such an opinion.

Management of ICE prepared the Table of Prior Year Drug Control Obligations, related
disclosures, and management’s assertions to comply with the requirements of the Office of
National Drug Control Policy (ONDCP) Circular, Drug Control Accounting, dated May 1, 2007
(the Circular).

Based on our review, except as described in the paragraph below, nothing came to our attention
that caused us to believe that (1) the Table of Prior Year Drug Control Obligations and related
disclosures for the year ended September 30, 2012 are not presented, in all material respects, in
conformity with the Circular, or that (2) management’s assertions referred to above are not fairly
stated, in all material respects, based on the criteria set forth in the Circular.

In the Table of Prior Year Drug Control Obligations and related disclosures for the year ended
September 30, 2012, management utilized and disclosed a revised methodology for calculating
the obligations related to both domestic and international intelligence operations that was not
approved by ONDCP as required by section 6a(1)(b) of the Circular.

This report is intended solely for the information and use of the management of DHS and ICE,
the DHS Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and
should not be used by anyone other than these specified parties.




January 22, 2013



                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                     Office o/tlle e llie/Financial Officer

                                                                     u.s. Department of Homeland Security
                                                                     500 12th Street, SW
                                                                     Washington, D.C. 20536


                                                                     u.s. Immigration
                                                                     and Customs
                                                                     Enforcement
January 22, 201 3

Ms. Ann e L. Richards
Ass istant In spector General for Audit
U.S. Department of Homeland Security
Office of the Inspector General
11 20 Verm ont Avenue N W, l oth Floor
Washington, DC 20005

Dear Ms. Richards,

In accordance with the Office of Nationa l Drug Contro l Policy circular, Drug Co ntro l
Accounting, dated May 1, 2007, enclosed is Immi grati on and Customs Enfo rcement's report of
FY 20 12 drug obli gations, drug control, methodology and assertions.

If you require further assistance on thi s information, please contact Jami e Sturgis at (2 02) 732-
6188.
                               Sincere ly,




                               Andrew Mc il roy
                               Deputy Director, Office of Budget and Program Performance
                               U.S . Imm igrati on and Customs Enforcement




                                                                     www.ice.gov
                                                       -1­


                            U.S. Department of Homeland Security
                          U.S. Immigration and Customs Enforcement
             Detailed Accounting Submission of Drug Control Funds during FY 2012


A.	 Table of Prior Year Drug Control Obligations
   Drug Resources by Budget Decision Unit and Function:

                                                                                 FY 2012 Final
                                                                                  (In Millions)
                  Salaries and Expense
                         Domestic Investigations                                        $476.918
                         International Affairs                                            $7.216
                         Intelligence: Domestic                                          $15.991
                         Intelligence: International                                      $0.768
                  Total Salaries and Expense                                           $500.893


           Total Funding                                                               $500.893


           High Intensity Drug Trafficking Area (HIDTA) Transfer                          $1.335

   Disclosure No. 1: Drug Methodology

   U.S. Immigration and Customs Enforcement (ICE) is a multi-mission bureau, and obligations are
   reported pursuant to an approved drug methodology. Separate calculations are made for the
   three ICE programs which undertake drug-related investigative activity: Domestic
   Investigations, International Affairs, and Intelligence.


   Domestic Investigations

   •	 The methodology for Domestic Investigations is based on investigative case hours recorded
      in ICE’s automated Case Management System. ICE officers record the type of investigative
      work they perform in this system which interfaces with TECS, a system used to identify and
      report case hours coded to specific investigative categories. Following the close of the fiscal
      year, ICE uses TECS reports to identify and report the total investigative case hours that are
      coded as general narcotics cases and money laundering narcotics cases. A second TECS
      report shows investigative case hours logged. A percentage is derived by dividing the
      number of investigative case hours linked to drug control activities by the total number of
      investigative case hours. This percentage may fluctuate from year to year. For FY 2012, the
      actual percentage for Domestic Investigations was 28.2%. To calculate a dollar amount of
      obligations, this percentage was applied to actual obligations incurred by Domestic
      Investigations, excluding reimbursable authority. ICE uses the Federal Financial
      Management System (FFMS) to identify the obligations incurred.
                                                -2­




International Affairs

•	 The methodology for International Affairs is based on investigative case hours recorded in
   ICE’s automated Case Management System. ICE officers record the type of work they
   perform in this system, which interfaces with the TECS system. Following the close of the
   fiscal year, a TECS report is run showing investigative case hours that are coded as general
   narcotics cases and money laundering narcotics cases. A second report is run showing all
   investigative case hours logged. A percentage is derived by dividing the number of
   investigative case hours linked to drug control activities by the total number of investigative
   case hours. For International Affairs, the actual percentage of hours that were counter-
   narcotics related was 6.3% in FY 2012. To calculate a dollar amount of obligations, this
   percentage was applied to actual obligations incurred by International Affairs, excluding
   reimbursable authority. The FFMS is the system used to generate the actual obligations
   incurred.

Intelligence

•	 The methodology for Intelligence is based on intelligence case hours recorded in ICE’s
   automated Case Management System. ICE intelligence officers record the type of work they
   perform in this system, which interfaces with the TECS system. Following the close of the
   fiscal year, a report in the TECS is run showing investigative case hours that are coded as
   general narcotics cases and money laundering narcotics cases. A second report is run
   showing all investigative case hours logged. A percentage is derived by dividing the number
   of investigative case hours linked to drug control activities by the total number of
   investigative case hours logged for Intelligence. For FY 2012, 22.0% of the total case hours
   for Intelligence were in support of drug control activities. To calculate a dollar amount of
   drug control obligations, this percentage was applied to actual obligations incurred by
   Intelligence, excluding reimbursable authority. The FFMS is the system used to generate the
   actual obligations incurred.

   ICE officers provide intelligence services for Domestic Investigations and International
   Affairs to support criminal investigations aimed at disrupting and dismantling criminal
   organizations involved in transnational drug trade and associated money laundering crimes.
   Intelligence case hours recorded in TECS are not designated domestic or international,
   although Intelligence equally supports both transnational and domestic criminal
   investigations that are conducted by Domestic Investigations as well as International Affairs
   and both together. ICE takes the total investigative hours in TECS for agents overseas
   divided by the total investigative hours in TECS (both domestic and international) to obtain a
   percentage of the total investigative hours that are international. The resulting percentage is
   used to determine the amount of work that Intelligence does for international activities (4.58
   %) and domestic activities (95.42%) The respective percentages are applied to the total
   Intelligence drug related obligations as determined above to identify the relative international
   and domestic obligations expended by Intelligence for drug control activities.
                                               -3­


Disclosure No. 2: Methodology Modifications

In FY 2012, ICE revised the method for determining Intelligence obligations that are domestic
and international. The previous method was based on the ratio of Requests for Information (RFI)
prepared for International Affairs and Domestic Investigations that were recorded in the
Intelligence Information Management System (IIMS). Beginning in FY 2012, ICE revised the
process and criteria for designating RFI to align with the DHS Intelligence Enterprise Policy
Directive 8310 (DHS PD8310). As a result, the scope of intelligence products that meet the RFI
criteria specified by DHS PD8310 changed, and henceforth, fewer RFI were recorded in IIMS.
Additionally, ICE found the international/domestic ratio of RFI requests recorded in IIMS no
longer reflected Intelligence products nor workload that were international or domestic.
Consequently, ICE revised the methodology used to identify Intelligence drug related obligations
that are domestic or international. The new method uses the relative TECS investigative case
hours that are domestic or international. ICE has initiated discussion to obtain ONDCP approval
of the change to the methodology.


Disclosure No. 3: Material Weaknesses or Other Findings

In the Fiscal Year 2012 Financial Statement Audit, ICE contributed to material weaknesses at the
Department of Homeland Security consolidated financial statement level.

During FY 2012, ICE continued to have issues with the validity of undelivered orders (UDO).
Verification and validation (V&V) reviews performed by ICE financial managers indicate
reliance on responses from field office personnel to determine the validity of open obligations
which are sometimes inaccurate, or do not provide sufficient information for the ICE financial
managers to make an informed decision about the balance, rendering the V&V process
ineffective. ICE’s verification and validation process was not adequate to identify invalid UDOs,
which resulted in the overstatement of undelivered orders, as obligations are not closed out in a
timely manner. Additionally, ICE does not have an effective process to match advances to
obligations at the transaction level. In FY 2013, ICE is identifying immediate steps to review the
Open Document File for all undelivered orders, and close out and deobligate any invalid UDOs.
Additionally, a longer-term solution will involve the end-to-end review the obligations
management process, determine improvement areas, and identify long-term solutions.

The contributions to material weaknesses identified above did not impair ICE's ability to report
complete and accurate obligation data in the Table of Prior Year Drug Control Obligations.

Disclosure No. 4: Reprogrammings or Transfers

No Reprogrammings or Transfers of drug-related budget resources occurred during FY 2012.

Disclosure No. 5: Other Disclosures
There are no other disclosures, which we feel are necessary to clarify any issues regarding the
data reported.
                                                  -4­


B. Assertions

   Assertion No. 1: Obligations by Budget Decision Unit

   Not Applicable - As a multi-mission agency, ICE is exempt from reporting under this section as
   noted in the Office of National Drug Control Policy (ONDCP) Drug Control Accounting, Section
   6 (b) (1).

   Assertion No. 2: Drug Methodology

   The methodology used to calculate obligations of prior year budgetary resources by budget
   decision unit and function is reasonable and accurate in regard to the workload data employed
   and the estimation methods used. The workload data is derived from the TECS system discussed
   in the methodology section above and is based on work performed between October 1, 2011 and
   September 30, 2012. There are no other estimation methods used. The financial system used to
   calculate the drug-related budget obligations is the FFMS which is capable of yielding data that
   fairly presents, in all material respects, aggregate obligations.

   ICE revised the methodology used to determine overseas and domestic intelligence drug
   obligations to maintain conformance to ONDCP circular requirements. ICE did not obtain
   advance ONDCP approval of the revised methodology, but we have initiated contact with
   ONDCP to discuss and obtain their approval.

   Assertion No. 3: Application of Drug Methodology

   The methodology disclosed in section A, Disclosure No. 1 was the actual methodology used to
   generate the Table of Prior Year Drug Control Obligations.

   Assertion No. 4: Reprogrammings or Transfers

   No reprogrammings or transfers of drug-related budget resources occurred during FY 2012. The
   data presented are associated with obligations against a financial plan that was sent to ONDCP in
   FY 2012.

   Assertion No. 5: Fund Control Notices

   No Fund Control Notice was issued by the ONDCP Director under 21 U.S.C. section 1703(f) and
   Section 8 of the ONDCP Circular, Budget Execution, to ICE in FY 2012.
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Planning and Budget

   U.S. Immigration and Customs Enforcement

   Director
   Chief Financial Officer
   Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                  1                         OIG-13-30
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
